No.
In The

Supreme Court of the United States
Prescott McCurdy
Petitioner
v.
State of Maine
Respondent

On Petition for the Writ of Certiorari
to the Supreme Court of Maine

PETITION FOR WRIT OF CERTIORARI

Prescott McCurdy
34 Allen Point Rd.
Harpswell, Maine 04079
(207) 449-1446

ReCEiVEOp
auk -5 ?na

QUESTIONS PRESENTED FOR REVIEW:
1) Has the 'peoples' right to 'personal liberty'
been suspended? Whereas the State; through statutes;
is criminalizing 'personal liberty’ while authorizing its
agencies arid agents to seize private
property(automobiles) without warrants; taking
without compensation; then the transfer of such
property to a private entity, as well as authorizing
that private entity the right to demand compensation
for the return of said property.

2) Does a statute which operates without mens
rea, that criminalizes a contractual obligation, deny
Due Process of Law and is this statute overly broad
and vague on it's face and as applied?

3) Do the rulings/actions of judges and justices;
in this case; deny Due Process of Law, violate their
oaths of office to support the Constitution as well as
constitute an 'Unfair Trial'? Whereas the trial judge
has; declared that definitions in a dictionary are not
relevant in the State of Maine; denied questioning a
witness on his/her knowledge of the Constitution; as
well as denied submission of relevant evidence and
law to the jury.
l

PARTIES INVOLVED:
Prescott McCurdy
Petitioner
34 Allen Point Rd.
Harpswell, ME o4o79
(207) 449-1446

A.A.G. MaComber
Respondant
6 Statehouse Station
Augusta, ME 04333-006
(207) 626-8507

LIST OF PROCEEDINGS:
State ofMaine v. Prescott McCurdy, CUMCR 18-20749, Cumberland County Superior Court,
Judgment entered July 15, 2019.

State ofMaine v. Prescott McCurdy, CUM-19275, Maine Supreme Court, Judgment entered, March
5, 2020.

(SIMILAR CASES)
State ofMaine v. Prescott McCurdy, CUMCR
-18-20748, Cumberland County Superior Court,
Judgment entered August 6, 2019
State of Maine v. Prescott McCurdy,CUM-19391, Maine Supreme Court, Judgment entered, May
12, 2020.

li

TABLE OF CONTENTS:
A. Bases for Jurisdiction

1

B. Constitutional Provisions and Legal
Principles Involved

1

C. Statement of the Case
Factual Background

4

D. Reasons for granting writ
1st Argument. State Authorized
Criminal Activity Claim

13

2nd Argument. Mens Rea, vague
and overly broad statute Claim

20

3rd Argument. Non neutral judge,
no Fair Trial Claim

23

E. Conclusion
;

i

35

APPENDIX:
A: Decision, Maine Supreme Court

I

B: Decision, Pretrial Motion

III

C: Pretrial Motion

IV

D: Motion in Limine

VI

E: Motion for Arrest of Judgment

VII

F: Motion for New Trial

XII

G: Constitutional Provisions

XVI

111

;

H: Maine Statutes Involved

XVIII

I: Brunswick Police Report

XXV

J: Notice to Town of Brunswick

XXVII

K: Phone Message from Brunswick
Police Commander

XXIX

L: Second Notice to Brunswick Police

XXX

TABLE OF CITED AUTHORITIES:
Allgeyer v. Louisiana, 165 U. S. 578; Leep v.
Ry., 58 Ark. 407; 41 Am. St. Rep. 109; 23 L. R.
A. 264; 25 S. W. 75; Gillespie v. People, 188
111. 176; 80 Am. St. Hep. 176; 52 L. R. A. 283;
58 N. E. 1007; State v. Loomis, 115 Mo. 307;
21 L. R. A. 789; 22 S.W. 350
II Am. Jur. (1st) Constitutional Law, §329,
p.U35

19
13-14

II Am. Jur. (1st) Constitutional Law, § 329,
p.1135

15

Am Jur 2d Const. Law § 641: Ohio University
FacultyAss'n v. Ohio University, 5 Ohio App.
3d 130 449 N.E. 2d 792, 11 Ed. Law Pop 623
(4th dist. Athen County 1982)

19

25 Am. Jur. (1st) Highways Sect. 163 Chicago
Motor Coach vs. Chicago, 169 N.E. 22, ALR;
Ligare vs. Chicago, 139 ILL. 46, 28 NE 934;
Boon vs. Clark, 214 SW 607;

14

IV

:

2

:
!

;

?

<

Am. Jur. 2d 16a, p.355: Poulos v. State ofNew
Hampshire, 345 U.S. 395, 73 S. Ct. 760, 97 L.
Ed., 1105, 30 A.L.R. 2d 987 (1953); De Jonge
v. State of Oregon, 299 U.S. 353, 57 S. Ct. 255,
81 L. ed. 278 (1937)

27

Am. Jur. 2nd, Searches and Seizures §137

16

Am. Jur. 2d 16b, p.494: American Ry. Express
Co. v. Commonwealth ofKentucky, 273 U.S.
269, 47 S. Ct. 353, 71 L. Ed. 639 (1927)

27

Am. Jur. 2d 16, pl77

34

Batterman v. Ingalls, 48 Ohio St. 408. 28 N.
10. 108 Hatcher v. Dunn, 102 Iowa, 411, 71
N. W. 343, 30 L. It. A. GS9; Mason v. Assoc.,
18 U. C. C. P. 19;(Black's Law Diet.)

21

Bower v. Devito, 686 F.2d 616, 618
(7th Cir. 1982)

34

Brown v. Texas 43 U.S. 47, 50-51 (1979)

16

Caneisha Mills v. D.C., 08-7127 (3rd Cir. 2009)

32

Chicago v. Morales, 527 U.S. 41, 56 (1999)

22

Constitution of United States Analysis and
Interpretation (2013 pgl630)

30

Colorado v. Bertine, 479 U.S. 367 (1987)

16

Crane v. Hahlo, 258 U.S. 142, 145-46 (1922);
Louisiana ex rel. Folsom v. Mayor of New V

Orleans, 109 U.S. 285, 288 (1883); Morley v.
Lake Shore Ry., 146 U.S. 162, 169 (1892)

19

City of Dallas v. Mitchell, 245 S.W. 944
(5th D. 1922)

34

Duncan v. Missouri, 152 U.S. 377, 382 (1894)

22

Elonis v. U.S., 575 U.S____(2015)

21

General Motors Corp. v. Romein, 503 U.S. 181,
112 S. Ct. 1105, 117 L. Ed.2d 328 (1992)

18

Griswold v. Connecticut, 381 U.S. 479 (1965)

32

Harria v. New York, 401 U.S. 222 (1971)

33

Hurtado v. California, 110 U.S. 516, 528, 532,
536 (1884)

33

Jensen v. Chicago & W.I.R. Co., 94 III.App.3d
915, 50 III.Dec 407, 419 RE.2d 578

17

Kent v. Dulles, 357 U.S. 116 (1958)

14

Kent v Dulles 357 U.S. 116, 357 U.S 125-6
(1958)

18

Levine v. United States, 362 U.S. 610, 80 S.Ct.
1038 (1960)

35

Maine Constitution, Article I, sect. 4

26

Laws of the State of Maine, Chp LXXXIV, sect. 15 26
vi

*■v

• *

Marshall v. Jerrico, 446 U.S. 238, 242 (1980);
Schweiker v. McClure, 456 U.S. 188, 195
(1982)

30

Marbury v. Madison 5 U.S. 137 (1803)

31

Michigan v. Duke 266 US, 476 Led. At 449

15

Munn v. Illinois, 94 U.S. 113, 24 L. Ed. 77
(1877)

15

Murdock v. Pennsylvania 319 U.S. 105

20

People v. Fielden, 162 Colo. 574 (Colo. 1967)

17

Restatement (Second) of Contracts §175, 176

20

Rochin v. California, 342 U.S. 165, 72 S. Ct.
205, 96L. Ed. 183, 25 A.L.R. 2d 1396 (1952)

29

Sanders v. United States 373 U.S. at 8

31

State v. Clinton County, 76 N.E. 986, 166 Ind.
162 (1906)

22

Thomas v. United States 192 U.S. at 370 (1904)

20

Trammel v. United States, 445 U.S. 40, 100
S.Ct. 906, 63 L. Ed. 2d 186 (1980)

26

Williams v. Fears, 179 U.S. 270, 274 (1900)

13

Oshrin v. Coulter, 142 Ariz. 109, 688, P2.d 1001
(1984). See Kmsella v. U.S. ex rel. Singleton,
361 U.S. 234, 80 S. Ct. 297, 4 L. Ed.2d 268

30

Vll

BASIS FOR JURISDICTION:
The jurisdiction of this Court is invoked
pursuant to 28 U.S.C. §1257 (a); Whereas; the State
statutes involved in this case are repugnant to the
Constitution and Laws of the United States. The
judgment was affirmed by the Maine Supreme Court
on March 5, 2020.

CONSTITUTIONAL PROVISIONS AND
LEGAL PRINCIPLES INVOLVED:
A: Constitutional Provisions
(Article VI, Clause II, U.S. Constitution)
(Article VI, Clause 3, U. S. Constitution)
(4th Amendment, U.S. Constitution)
(5thAmendment, U.S. Constitution)
(6th Amendment, U.S. Constitution)
(9th Amendment, U.S. Constitution)
(13th Amendment, U.S. Constitution)
(14th Amendment; U.S. Constitution)
(Article I, Section 10, Clause 1, U.S.
Constitution)
1

B: Fundamental Principles
!

He who stands on his own rights injures no one.

!

An action is not given to one who is not injured.

!

Law favoreth life, liberty and dower.

!

Law favoreth justice and right.

!

Law favoreth common right.

!

The intent and the act must both concur to
constitute crime.

!

The la w is not to be violated by those in
government.

!

Force and wrong are greatly contrary to peace.

!

An act of the court shall oppress no one.

!

He is the best judge who relies as little as
possible on his own discretion.

!

That is the best system oflaw which confides as
little as possible to the discretion of the judge.

!

It is the duty of a judge to declare the law, not
to enact the law or make it.

!

Fra ud and justice never dwell together.

!

What is mine cannot be taken away without my
consent.

!

No action arises out of an immoral contract.
2

!

A contract cannot arise out of an act radically
vicious and illegal.
\

!

The essence of a contract being assent, there is
no contract where assent is wanting.

!

Consent makes the law. A contract is a law
between the parties, which can acquire force
only by consent

!

Nothing is so contrary to consent as force and
fear.

!

Whenever there is a doubt between liberty and
slavery, the decision must be in favor ofliberty.

!

The government is to be subject to the law, for
the law makes government.

!

The construction oflaw works not an injury.

"Our nation," wrote Chafee, "has thrived on the
principle that, outside areas of plainly harmful
conduct, every American is left to shape his own life as
he thinks best, do what he pleases, go where he
pleases." [cf. Kent v. Dulles, 357 U.S. 116 (1958)]
The neutrality requirement helps to guarantee
that life, liberty, or property will not be taken on the
basis of an erroneous or distorted conception of the
facts or the law. [ cf. Marshall v. Jerrico, 446 U.S. 238,
242 (1980); Schweiker v. McClure, 456 U.S. 188, 195
(1982)]

3

STATEMENT OF THE CASE:
Factual Background
On September 30,2018, [i]; the Petitioner; was
stopped by Brunswick Police officers and charged with
operating an unregistered motor vehicle (M.R.S. 19-A
§351) as well as false identification (M.R.S. 19-A §
2104). Crimes in the state of Maine. [My) property; a
1985 Toyota LandCruiser, FJ60; was searched and
seized; without a warrant; then impounded at a local
towing company, and 'held for safe keeping', (see
Appendix I)
On October 25, 2018, i sent a Notice to the
town of Brunswick demanding the return of [my)
property, (see Appendix J)
A reply from the police commander stated that i
could not get [my) property back unless it was
'registered' and i would have to pay the impound fees,
(see Appendix K)
A second Notice sent to the Brunswick Police
dept, on November 9, 2018, was ignored, (see
Appendix L)
(NOTE: The impounder, Atlantic Coast
Towing, filed a claim for title under an
abandonment statute. After a hearing at the
Maine Bureau of Motor Vehicles, in which
the BMV ordered [i] to pay Atlantic Coast
4

Towing for the return of [my] property or the
automobile would have title transferred to
Atlantic Coast Towing, [i] filed a Petition for
Review and Ancillary Claim under M.R.Civ.
P. 80(C) in Kennebec County Superior Court
(Ap-19-09). As of, June 1, 2020, The decision
of the BMV has been affirmed.}
A Pretrial Motion (see Appendix D) was
submitted on March 21, 2019, declaring charges
unconstitutional. Specifying that charge for false
identification unconstitutionally vague, and
challenging the legality of probable cause to arrest
and seize property, as well as request for return of
seized property.
A Motion Hearing was held on April 9, 2019.
The Pretrial Motion claiming statutes
unconstitutional was denied, (see Appendix B and C)
A Motion in Limine for Dismissal was filed on
June 12, 2019. This motion argued that the False
Identification charge, 29-A §2104, is overly broad and
does not require intent. Alternatively requiring jury
instruction on intent, (see Appendix D).
Motion in Limine was denied.
On June 2, 2019, a jury trial was held.
During cross examination, [i] asked the witness
“ you have stated twice that you are familiar with the
law.
5

Are you familiar with the Constitution of Maine and of
the United States?” (trans pg67)
The prosecution objected. The trial judge
allowed.
The witness stated “yes, sir.”
Prosecution objected to further questions to the
witness, on his knowledge of the Law.
Trial judge sustained the prosecutors
objections, declaring that, “the Constitution is the law
of the land but that is a legal issue not a factual issue
for Officer Curtis.” (trans pg68)
This error was further aggravated by
disallowance of further questions regarding the Law.
(tr 126, 127)
During cross examination, the witness;
Brunswick Police Officer Curtis; confirmed that [i]
was not driving to endanger anyone nor did the
operation of [my] property harm anyone, and that i
was conducting myself in a decent and orderly
manner, (trans pg 68-71)
The witness also testified that [i] was not
operating a commercial vehicle, (trans pg 71-2)
On furthering my questioning of the witness, i
attempted to use documentary evidence in the form of
Black's Law dictionary.
6

i requested the submission of definitions as
facts, (trans pg77)
The trial judge denied my use of such evidence.
Stating that, “definitions are not facts, those would be
law, so i will sustain the objection.” (trans pg77)
i argued, “definitions in a dictionary are facts,
they are written and can be verified.” (trans pg77)
The trial judge stated further that, “they are
law because the bottom line is the definitions that are
relevant to this proceeding are those set forth in the
Statute, are those provided by the Court.” (trans pg77)
The trial judge continued, “ We don't let the
jury have a dictionary to decide for itself what
something means if the word has been defined in the
Statute.” (trans pg77)
[i] questioned the witness as to why he
impounded [my] automobile.
the witness responded, “the reason i impounded
your vehicle is because the registration expired back
in 2014... the vehicle was not fit for roadway due to
the... because... the rear registration plate was
obstructed, there is no registration plate visible on the
vehicle, and where it had expired in 2014, it was not
registered to be legally operated on the roadway.”.”
(trans pg84-5)

7

[i] showed the witness a photograph that he
took during the seizure. (Defense Exhibit 1)
[i] asked the witness, “is there anything
obscuring that plate currently in the photograph?”
(trans pg89)
The witness testified, “yes, there is.”
i asked the witness, “what do you see that's
obscuring in that photograph?”
The witness testified, “the expiration sticker is
not attached to the registration plate.” (trans pg89)
[i] repeated a questioning concerning obscuring,
the witness stated, “because the sticker to the
registration plate for the expiration is not attached
which means it is falsely identified.”(trans pg90)
[i] showed officer Curtis, the witness, States
Exhibit 2, and asked, “in States Exhibit 2, we have
bicycles and we have a spare tire. Officer Curtis, are
those unusual things to have on the back of a vehicle?”
(trans pg91)
Officer Curtis testified, “ No, they are not.”
Co-Counsel questioning [i]; the accused:
Question by co-counsel, “is your understanding
that to register your vehicle has anything to do with
safety?”
8

[My] response, “It is my understanding it has
nothing to do with safety.”
Continuing my response, “What is the basis of
the registration is the taxation and the ... actually the
excise tax is unlawful tax under the Constitution.”
Further questions from co-counsel, “were you
using — was this a vehicle that was used
commercially.” (tr pgl26)
[My] testimony, “It was not, under the
Constitution the police power of the State,
they are required to regulate commerce. As
far as private people are concerned, we need
to be let alone unless we are interfering with
somebody else, the limitations of the police
power of the State are limited to the health
and welfare of the people, and registration is
a tax.” (tr pgl26)
Co-counsel, “In your opening statement, you
asked the question, what kind of conduct would you
consider a crime, tell me what you meant by that?”
[i] responded, “Conduct that is injurious to
people, to the community, such as murder, rape, theft,
arson.” (tr pgl27)
[my] continued responses. “No, the plate is not
clearly covered with any kind of tape to change the
markings or anything of that such.” (tr pgl29)
9

Discussion of Jury Instruction:
The trial judge in discussing jury instructions, “
then you can say i want the following additional
definitions or instructions .... and i can give them or
not depending on whether i agree with you.” (tr pgl35)
After break, the trial judge stated , “Let me
tell you what i am going to do.... i am not
going to give any of those (referring to
accused instructions as to definitions) over
your objection, Mr. McCurdy, because it
seems to me that what we are doing now is
talking about things that don't have anything
to do with the case in particularly, and we
are also getting things that are definitions
from places that I don't necessarily agree are
definitions applicable to Maine.” (tr pgl41)
Trial judge during further discussion of jury
instructions, “it is the function of the court to instruct
the jurors on the law and it is the jurors duty to decide
the facts and be governed by the law as instructed.” (tr
pg!44)
The jury was given some instruction as to the
Constitutions of Maine and the United States, (trans
pg!55)
The other instructions on definitions; that [i]
requested; were not given to the jury.
10

The trial judge, in speaking to the jury stated, “
i am obliged to tell you that, under Maine Law,
persons operating motor vehicles on roadways are
properly required by law to have motor vehicles
registered as a condition of operation.”
The trial judge made it clear in his instructions
to the jury that, “under Maine Law, there is no
inherent Constitutional right to drive an unregistered
motor vehicle.” (tr pgl55)
After deliberation the jury returned with a
question regarding the title to statute 29-A §2104,
False Identification.
The trial judge answered their question.“as a
matter of law, Statutory titles of sections and
subsections aren't law, the law is the text of the actual
Statute. In fact, the legislature has actually said that
our statutory titles are not provisions of law.” (tr
pgl74-5)
On June 12, 2019, [i] was found guilty on both
counts by the jury.
A Motion for New Trial with a claim of No 'Fair
Trial' and a Motion for Arrest of Judgment claiming
lack of jurisdiction and criminal activity were
submitted on June 24, 2019.(see Appendix E and F)
Both of the Motions for New Trial and Arrest of
Judgment were Denied on July 1, 2019.
11

A notice of Appeal was filed on July 12, 2019.
On November 12, 2019, the brief was filed.
The brief challenged the constitutionality of the
statutes, as to the infringement of 'personal liberty',
denial of Due Process of Law, denial of the right of
contract, the unequal application of an overly broad
and vague False Identification statute, as well as the
lack of mens rea, the constitutionality of taxes
associated with registration and involuntary
servitude.
The brief also challenged the actions/ inactions
of the trial judge as to 'standing', jurisdiction, denial of
questioning the witness, denial of the use and
submission of documentary evidence, and denial of
jury instruction.
The appeal brief also declared the rights of the
jury.

i submitted a reply brief on January 1, 2020.
The reply brief challenged the 'Reasonableness' of the
statutes in question.
The ruling of the Maine Supreme Court was
judgment affirmed on March 5, 2020. (see Appendix A)

12

REASONS FOR GRANTING WRIT:
1st ARGUMENT: State Authorized Criminal
Activity, and the UnConstitutionality of criminal
Statute Claim1
a) The State, and its agencies and agents,
believe that an unregistered automobile can not be
used on the 'public' roadways, (see Appendix H, 19-A
§351) Constituting an abridgment of 'Personal
Liberty'.
“Undoubtedly the right of locomotion, the
right to remove from one place to another
according to inclination, is an attribute of
personal liberty, and the right, ordinarily, of
free transit from or through the territory of
any State is a right secured by the
Fourteenth Amendment and by other
provisions of the Constitution.” [cf. Williams
v. Fears, 179 U.S. 270, 274 (1900)]
Personal liberty largely consists of the right
of locomotion, to go where and when one
pleases, only so far restrained as the rights of
others may make it necessary for the welfare
of all other citizens. The right of a citizen to
travel upon the public highways and to
transport his property thereon, by horsedrawn carriage, wagon, or automobile, is not
a mere privilege which may be permitted or
prohibited at will, but a common right which
13
1 The Unconstitutional claims and State authorized criminal
activity were properly raised in state court proceedings.

he has under his right to life, liberty, and
the pursuit of happiness. Under this
constitutional guaranty one may, therefore,
under normal conditions, travel at his
inclination along the public highways or in
public places, and while conducting himself
in an orderly and decent manner, neither
interfering with nor disturbing another's
rights, he will be protected, not only in his
person, but in his safe conduct." [cf. II Am.
Jur. (1st) Constitutional Law, §329, p.1135]
Where activities or enjoyment natural and
often necessary to the wellbeing of an
American citizen, such as travel, are
involved, we will construe narrowly all
delegated powers that curtail or dilute them.
See Ex parte Endo, 323 U. S. 283, 323 U. S.
301-302.; Hannegan v. Esquire, Inc., 327 U.
S. 146, 327 U. S. 156; United States v.
Rumely, 345 U. S. 41, 345 U. S. 46. We
hesitate to find in this broad generalized
power an authority to trench so heavily on
the rights of the citizen.” [cf. Kent v. Dulles,
357 U.S. 116 (1958)]
The use of the highways for the purpose of
travel and transportation is not a mere
privilege, but a common and fundamental
Right, of which the public and the individual
cannot be rightfully deprived." [cf. 25 Am.
Jur. (1st) Highways Sect. 163; Chicago Motor
Coach vs. Chicago, 169 N.E. 22, ALR; Ligare
vs. Chicago, 139 ILL. 46, 28 NE 934; Boon
vs. Clark, 214 S.W. 607]
14

The witness testified that [i] was conducting
myself in an orderly and decent manner, not
endangering anyone, (see pg 6)
“State Police Power extends only to immediate
threats to public safety, health, welfare,” [cf.
Michigan v. Duke 266 US, 476 Led. At 449]
Happiness. Under this constitutional
guaranty, one may, therefore, under normal
conditions, travel at his inclination along the
public highways or in public places, and
while conducting himself in an orderly and
decent manner, neither interfering with nor
disturbing another's rights, he will be
protected, not only in his person, but in his
safe conduct." [cf. IIAm.Jur. (1st)
Constitutional Law, § 329, p.1135]
The witness verified that the automobile [i] was
operating, was not a commercial vehicle (see pg 6).
Therefore the 'public' has no interest in [my] property.
"When, therefore, one devotes his property
to a use in which the public have an interest,
he in effect grants to the public an interest in
that use, and must submit to be controlled by
the public for the common good, to the extent
of the interest he has thus created." But so
long as he uses his property for private use,
and in the absence of devoting it to public
use, the public has no interest therein which
entitles it to a voice in its control.” [cf. Munn
v. Illinois, 94 U.S. 113, 24 L. Ed. 77 (1877)]
15

/

The witness claimed [my] property was
impounded do to an expired registration. Is that an
exigent circumstance?
[My] property was; seized without a warrant;
taken without compensation; stolen, (see Appendix H;
pg XXII, Title 17-A §355)2
“The 4th Amendment general mandates that
absent exigent circumstances, the police must secure a
warrant prior to the search and seizure of an
automobile, [cf. Am. Jur. 2nd, Searches and Seizures
§137]
Under Brown, courts evaluating seizures “less
intrusive than a traditional arrest” are to consider (1)
“the gravity of the public concern served,” (2) “the
degree to which the seizure advances the public
interest,” and (3) “the severity of the interference with
individual liberty”.[cf. 43 U.S. 47, 50-51 (1979)]
Why is [my] property being “Held for safe
keeping”? (see Appendix I)
Colorado v. Bertine, 479 U.S. 367 (1987), the
seizure was unconstitutional because police exercised
too much discretion in deciding whether to impound
the vehicle and did not follow “standard criteria” in
making the choice.
16
2 See Sup. Ct. R. 14(l)(g)(i). The 4th Amendment and Due Process
of Law claims were properly raised in the State court
proceedings.

The taking and transfer to a private entity of
[my] property, constitutes conversion.
“All that is required is that the defendant
exercise control over the chattel in a manner
inconsistent with the plaintiffs right of possession.”
[cf. Jensen v. Chicago & W.I.R. Co., 94 III.App.3d 915,
50 III.Dec 407, 419 N.E.2d 578]
“An essential element of the crime of
criminal conversion is that the property must
be owned by another and the conversion
thereof must be without the consent and
against the will of the party to whom the
property belongs, coupled with the
fraudulent intent to deprive the owner of the
property.” [cf. People v. Fielden, 162 Colo.
574 (Colo. 1967)]
Being in possession of [my] stolen property, and
demanding monetary compensation for the return of
said property, is compulsion of a contract in which [i]
did not agree to. In other words, BlackMail.
BlackMail. 'term for extortion and it is a
criminal act where a person will attempt to get money
from another person by threats.' (Black's Law Diet.
2nd)
And the State authorizes all these acts, (see
Appendix H, pgXXI, Impoundment)

17

No Due Process of Law here.3
The right to travel is a part of the 'liberty'
of which the citizen cannot be deprived
without due process of law under the Fifth
Amendment. . . . Freedom of movement
across frontiers . . . and inside frontiers as
well, was a part of our heritage. . . ." [ cf.
Kent v.Dulles 357 U.S. 116, 357 U.S 125-6
(1958)]
“The Due Process Clause is intended to prevent
the government from abusing its power or employing
it as an instrument of oppression.” [cf. General Motors
Corp. v. Romein, 503 U.S. 181, 112 S. Ct. 1105, 117 L.
Ed.2d 328 (1992)]
All this in order to compel a contract of
registration. Do the people no longer have liberty to
contract?
Contract. A promissory agreement between
two or more persons that creates, modifies, or
destroys a legal relation. An agreement
creating obligation, in which there must be
competent parties, subject-matter, legal
consideration, mutuality of agreement and
mutuality of obligation. There can be no true
contract without the mutual and concurrent
intention of the parties, (emphasis added)
(Black's Law Diet. 4th)
18
3 See Sup. Ct. R. 14(l)(g)(i). The 5th and 14th Amendment claims
were timely and properly raised in State Court proceedings.

“The right to contract is secured by cons­
titutional provisions protecting property and
liberty.” [cf. Allgeyer v. Louisiana, 165 U. S.
578; Leep v. Ry., 58 Ark. 407; 41 Am. St. Rep.
109; 23 L. R. A. 264; 25 S. W. 75; Gillespie v.
People, 188 111. 176; 80 Am. St. Hep. 176; 52
L. R. A. 283; 58 N. E. 1007; State v. Loomis,
115 Mo. 307; 21 L. R. A. 789; 22 S. W. 350.]
“The term “contracts” is used in the
Contract Clause in its popular sense of an
agreement of minds.” [cf. Crane v. Hahlo, 258
U.S. 142, 145-46 (1922); Louisiana exrel.
Folsom v. Mayor of New Orleans, 109 U.S.
285, 288 (1883); Morley v. Lake Shore Ry.,
146 U.S. 162, 169 (1892)]
“There is no legal or equitable right
requiring a party to involuntary contract
with another party.” [cf. Am Jur 2d Const.
Law § 641: Ohio University Faculty Ass'n v.
Ohio University, 5 Ohio App. 3d 130 449 N.E.
2d 792, 11 Ed. Law Pop 623 (4th dist. Athen
County 1982)]
And the excise tax imposed for the use and
enjoyment of an automobile, is Unconstitutional, (see
Appendix H, pg XXIII)
Excise, a tax on the manufacture, sale, or
consumption of goods within a country (New MerriamWebster Diet.)
“duties, imposts and excises.” These terms,
according to the Chief Justice, “were used
19

comprehensively to cover customs and excise duties
imposed on importation, consumption, manufacture
and sale of certain commodities, privileges, particular
business transactions, vocations, occupations and the
like.” [cf. Thomas v. United States 192 U.S. at 370
(1904)]
“A state may not impose a charge for the
enjoyment of a right granted by the Federal
Constitution.” [cf. Murdock v. Pennsylvania 319 U.S.
105]
The undue influence of such contracts through
criminalization puts people under duress.
'Under the doctrinal test for duress,
“wrongful acts” includes illegal actions, but
extend beyond that to some immoral acts,
including threats of criminal prosecution and
claiming a right or failing to perform on a
contract when one does not (subjectively)
believe that one is legally justified.' [cf.
Restatement (Second) of Contracts §175, 176]
THEREFORE; the said statute is
Unconstitutional on its face and as applied, and the
State is violating its own laws, (see Appendix H pg
XXII-XXIII, Title 17-A)

2nd ARGUMENT. The other charge of 'False
Identification', that i was convicted under;
20

M.R.S. 29-A §2104(2)(see Appendix H, pg XXII); is
overly broad, vague, and does not require mens rea.4
“the “general rule” is that a guilty mind is “a
necessary element in the indictment and proof of
(2015)]
every crime.” [cf. Elonis v. U.S., 575 U.S
False implies an intent to deceive and injure.
False. Untrue; erroneous; deceitful;
contrived or calculated to deceive and injure.
Unlawful. In law, this word means
something more than untrue; it means
something designedly untrue and deceitful,
and implies an intention to perpetrate some
treachery or fraud. Batterman v. Ingalls, 48
Ohio St. 408. 28 N. 10. 108; Hatcher v. Dunn,
102 Iowa, 411, 71 N. W. 343, 30 L. It. A. GS9;
Mason v. Association, 18 U. C. C. P. 19;.
(Black's Law Diet. 2nd)
The witness testified that bicycles and a spare
tire are not uncommon items to have on the back of an
automobile (see pg 8). Therefore; charging [i] with
this vague and overly broad statute constitute an
arbitrary and discriminatory application.
“Vagueness may invalidate a criminal law
for either of two independent reasons. First,
it may fail to provide the kind of notice that
21
4 See Sup. Ct. R. 14(l)(g)(i). The mens rea, vagueness, and
overly broad claims were properly raised in the State court
proceedings, (see pg 5)

will enable ordinary people to understand
what conduct it prohibits; second, it may
authorize and even encourage arbitrary and
discriminatory enforcement. See Kolender v.
Lawson, 461 U.S., at 357.[cf. Chicago v.
Morales, 527 U.S. 41, 56 (1999)]
Where is the injury?
“Due process of law and the equal protection of
the laws are secured if the laws operate on all alike,
and do not subject the individual to an arbitrary
exercise of the powers of government." [cf. Duncan v.
Missouri, 152 U.S. 377, 382 (1894)]
The witness also stated that not having the
registration 'sticker' on the plate constituted
obstruction and false identification, (see pg 7) How
does this constitute obstruction or even classify as
'False'?
When the jury asked about the title of said
statute; the judge declared that 'titles to law are not
law or provisions of the law', (see pglO)
“Under a constitutional provision kkk requiring
the subject of the legislation to be expressed in the
title, that portion of an act is often the very window
through which legislative intent may be seen.” [cf.
State v. Clinton County, 76 N.E. 986, 166 Ind. 162
(1906)]

22

Furthermore; Whereas this statute implies an
obligation; where there is no contract/agreement
there exists no obligation, (see pg 15)
THEREFORE; the said statute; on its face and
as applied; Unconstitutionally denies Due Process of
Law.

3rd ARGUMENT: Non neutral judge, denial
of evidence, denial of jury instruction, denial of
Due Process, No Fair Trial claim5
a) Denial of questioning the witnesses
knowledge of the Constitution.
During cross examination, i was denied
questioning the witness on his knowledge of the
Constitution, (see pg5)
According to Black's Law Dictionary, the
Constitution is a fact. 'Laws of the State, international
law, the constitutions, all are facts established by
common notoriety.' (Black's Law Dictionary 4th ed.,
Judicial Notice)
b) Denial of the use of documentary evidence

23
5 All Due Process of Law claims were properly raised in State
Court proceedings

[i] attempted to use and submit documentary
evidence. This evidence was definitions found in
Black's Law Dictionary 4th Ed. and others.
The judge denied the use of such, declaring
that:
“definitions that are relevant to this
proceeding are those set forth in the Statute,
are those provided by the Court.” continuing,
“ We don't let the jury have a dictionary to
decide for itself what something means if the
word has been defined in the Statute, are
those provided by the Court.” (see pg6)
Are the definitions in a dictionary untrue?
Fact: Something demonstrated to exist or
known to have existed, a piece of
information, the truth, A fact is an item of
knowledge or information that is true.
(Collins English Dictionary); a thing done, a
state of things that is, the publication itself,
evidence documentary and oral. (Black's Law
Diet. 4th ed.)
This act is deceitful and oppressive.
c) Denial of Jury instructions

24

[i] submitted documentary evidence in the form
of Judicial Notices under rule 201(2)(c & d) Maine
Rules of Evidence. The judge denied these instructions
declaring that: “ because it seems to me that what we
are doing now is talking about things that don't have
anything to do with the case in particularly, and we
are also getting things that are definitions from places
that I don't necessarily agree are definitions
applicable to Maine.” (see pg8)
Declaring that definitions from a dictionary are
not applicable in Maine constitutes a deceitful and
oppressive act.
As far as a), b), and c) above are concerned:

Evidence.
a) Any species of proof, or probative
matter, legally presented at the trial of an
issue, by the act of the parties and through
the medium of witnesses, records,
documents, concrete objects, etc., for the
purpose of inducing belief in the minds of the
court or jury as to their contention;
b) Facts judicially noticed are
equivalent to evidence;
c) opinions of experts is evidence
which is to be weighed and considered like
any other evidence;
25

d) That which demonstrates, makes
clear, or ascertains the truth of the very fact
or point in issue;
e) That which furnishes or tends to
furnish proof. It is that which brings to the
mind a just conviction of the truth or
falsehood of any substantive proposition
which is asserted or denied.
f) That which tends to prove or
disprove any matter in question, or to
influence the belief respecting it. Belief is
produced by the consideration of something
presented to the mind, the matter thus
presented, in whatever shape it may come,
and through whatever material organ it is
derived, is evidence.
(Black's Law Diet. 4th ed.)
'where the matter published is proper for public
information, the truth thereof may be given in
evidence. (Article I, sect 4, Maine Constitution)
It is a basic tenet in U.S. Jurisprudence
that "the public ... has a right to every
[person's] evidence," and that parties in
litigation should avail themselves of all
rational means of ascertaining truth” [cf.
Trammel v. United States, 445 U.S. 40, 100
S.Ct. 906, 63 L. Ed. 2d 186 (1980)]
“and of the traverse Juries, respectively, to
try, according to the established forms and
principles of law; all causes which shall be
committed to them, and to decide at their
26

discretion by a general verdict, both the 'fact
and the law, involved in the issue;” [cf.
Chapter LXXXIV, sect. 15, Laws of The State
ofMaine (1821)]
d) Denial of Due Process of Law
(see a, b, c, above)
Denial of 'Fundamental Principles' of law is a
denial of Due Process of Law.
“The Supreme Court laid down the rule
which is now the accepted and settled
principle, that the Due Process Clause
requires that state action, through one
agency or another, shall be consistent with
the fundamental principles of liberty and
justice which lie at the base of all our civil
and political institutions.” [cf. Am. Jur. 2d
16a, p.355: Poulos v. State of New
Hampshire, 345 U.S. 395, 73 S. Ct. 760, 97 L.
Ed., 1105, 30 A.L.R. 2d 987 (1953); De Jonge
v. State of Oregon, 299 U.S. 353, 57 S. Ct.
255, 81 L. ed. 278 (1937)]
“The U.S. Supreme Court cannot interfere
unless the judgment amounts to a merely
arbitrary or capricious exercise of power or is
in clear conflict with those 'fundamental
principles' which have been established in
our system of jurisprudence for the

27

protection and enforcement of private
rights.” (emphasis added) [cf. Am. Jur. 2d
16b, p.494: American Ry. Express Co. v.
Commonwealth ofKentucky, 273 U.S. 269
47 S. Ct. 353, 71 L. Ed. 639 (1927)]
The ' fundamental principles' that have been
denied are:
!

He who stands on his own rights injures no
one.

!

An action is not given to one who is not
injured.

!

Lawfavoreth life, liberty and dower.

!

Law favoreth justice and right.

!

Law favoreth common right.

!

The intent and the act must both concur to
constitute crime.

!

An act does not make a man a criminal,
unless his intention be criminal.

!

The law is not to be violated by those in
government.

!

Force and wrong are greatly contrary to
peace.

!

An act of the court shall oppress no one.

!

He is the best judge who relies as little as
possible on his own discretion.

!

It is the duty of a judge to declare the law,
not to enact the law or make it.

28

.!

That is the best system oflaw which
confides as little as possible to the discretion
of the judge.
Fraud and justice never dwell together.

!

No action arises out of an immoral contract.

!

A contract cannot arise out of an act
radically vicious and illegal.

!

The essence of a contract being assent, there
is no contract where assent is wanting.

!

Consent makes the law. A contract is a law
between the parties, which can acquire force
only by consent

!

Nothing is so contrary to consent as force
and fear.

!

Whenever there is a doubt between liberty
and slavery, the decision must be in favor of
liberty.

!

“The vague contours of due process do not
leave judges at large to do as they will and
they may not draw on their merely personal
and private notions and disregard the limits
that bind them in their judicial functions.”
[cf. Rochin v. California, 342 U.S. 165, 72 S.
Ct. 205, 96L. Ed. 183, 25 A.L.R. 2d 1396
(1952)]
THEREFORE; given the denial of ALL the
above (a, b, c, and d), there has been No Fair Trial and
there has been an Obstruction of Justice.
29

“Our Supreme Court has also held the denial
of due process is a denial of fundamental fairness,
shocking to a universal sense of justice.” [cf Oshrin v.
Coulter, 142 Ariz. 109, 688, P2.d 1001 (1984) See
Kinsella v. U.S. ex rel. Singleton, 361 U.S. 234, 80 S
Ct. 297, 4 L. Ed.2d 268]
“The neutrality requirement helps to guarantee
that life, liberty, or property will not be taken on the
basis of an erroneous or distorted conception of the
facts or the law.” [ cf. Marshall v. Jerrico, 446 U.S.
238, 242 (1980); Schweiker v. McClure, 456 U S 188
195 (1982)]
'A right to jury trial is granted to criminal
defendants in order to prevent oppression by
the Government. Those who wrote our
constitutions knew from history and
experience that it was necessary to protect
against unfounded criminal charges brought
to eliminate enemies and against judges too
responsive to the voice of higher authority.'
(Constitution of the U.S.ofA. Analysis and
Interpretation 2013 pgl630)
Fair and Impartial Trial. One where accused's
legal rights are safeguarded and respected. (Black's
Law Diet 4th)
Obstruction of Justice. The noncompliance with
the legal system by interfering with (1) the law
administration or procedures, (2) not fully disclosing
information or falsifying statements, and (3) inflicting
damage on an officer, juror or witness. (Black's Law
Diet. 2nd)
30

ADDITIONAL REASONS FOR GRANTING WRIT:
1. The welfare of the people is the supreme law.
(Maxim of Law)
2. Justice is neither to be denied nor delayed
(Maxim of Law)
3. “[(Conventional notions of finality of litigation
have no place where life or liberty is at stake and
infringement of constitutional rights is alleged.” [cf.
Sanders v. United States 373 U.S. at 8]
4. “The very essence of civil liberty certainly
consists in the right of every individual to claim the
protection of the laws whenever he receives an injury.
One of the first duties of government is to afford that
protection.” [cf. Marbury v. Madison 5 U.S. 137
(1803)]
5. The State believes that;
labeling someone as a criminal; when NO
ONE has been harmed; is 'Reasonable'.
And that; seizure; imprisonment; of a person;
when NO ONE has been harmed; is 'Reasonable'.
And that; seizure without a warrant; taking
without compensation; theft; of a person's property;
when NO ONE has been harmed; is 'Reasonable'.
And that; Deceiving the jury is 'Reasonable'.
And that; Coercion is 'Reasonable'.
And that; Conversion of a people's property; is
'Reasonable'.
31

And that; Extortion; is 'Reasonable'.
And that; Oppression; is 'Reasonable'.
And that; Involuntary Servitude; is
'Reasonable '.
6. And the State also believes these actions are
'Manifestly Necessary.'
7. And apparently so does the people of Maine's
Justice (truth) system.
8. It has been said that we must decide
whether a state law is "fair, reasonable and
appropriate," or is rather "an unreasonable,
unnecessary and arbitrary interference with
the right of the individual to his personal
liberty or to enter into . .. contracts," [cf.
Lochner v. New York, 198 U. S. 45, 198 U. S.
56. [cf. Griswold v. Connecticut, 381 U.S. 479
(1965)]
9. The harm to the rights of appellants is
apparent. It cannot be gainsaid that
citizens have a right to drive upon the public
streets of the District of Columbia or any
other city absent a constitutionally sound
reason for limiting their access. ... It is
apparent that appellants’ constitutional
rights are violated. It has long been
established that the loss of constitutional
freedoms, “for even minimal periods of time,
unquestionably constitutes irreparable
injury.” Elrod v. Burns, 427 U.S. 347, 373
(1976) (plurality opinion)
32

(citing New York Times Co. v. United States,
403 U.S. 713(1971)). [cf. Caneisha Mills v.
D.C., 08-7127 (2009)]
10. The State is ignoring the charter of its own
existence and judges are ignoring their oath.
“It is abiding truth that "[n]othing can destroy a
government more quickly than its failure to observe
its own laws, or worse, its disregard of the charter of
its own existence." Mapp v. Ohio, 367 U.S. 643, 659
(1961)”. [cf. Harris v. New York 401 U.S. 222 (1971)]
Constitution. The written instrument
agreed upon by the people of a union or a
particular state, as the absolute rule of action
and decision for all departments and officers
of the government in respect to all the points
covered by it, which must control until it is
changed by the authority which established
it, and in opposition to which any act or
ordinance of any such department or officer
is null and void. (Cooley, Const. Lim, 3.
Black's Law Diet. 4th)
11. What the State, its agencies, and agents are
doing is akin to bullies on the playground.
The Court then declared that “ [arbitrary
power, enforcing its edicts to the injury of the
persons and property of its subjects, is not
law, whether manifested as the decree of a
personal monaxxh or of an impersonal
multitude. And the limitations imposed by
33

our constitutional law upon the action of the
governments, both state and national, are
essential to the preservation of public and
private rights, notwithstanding the
representative character of our political
institutions. The enforcement of these
limitations by judicial process is the device of
self-governing communities to protect the
rights of individuals and minorities, as well
against the power of numbers, as against the
violence of public agents transcending the
limits of lawful authority, even when acting
in the name and wielding the force of the
government.” [cf. Hurtado v. California, 110
U.S. 516, 528, 532, 536 (1884)]
12. “The constitution is a charter of negative
liberties; it tells the state to let people alone.... ” [cf.
Bower v. Devito, 686 F.2d 616, 618 (7th Cir. 1982)]
13. “The people's rights are not derived from the
government, but the government's authority comes
from the people." [cf City ofDallas v. Mitchell, 245
S.W. 944 (Tex. App. - Dallas 5th Dist., 1922)]
14. “No one is bound to obey an
unconstitutional law... Since an
unconstitutional law is void, the general
principles follow that it imposes no duties,
confers no rights, creates no offices, bestows
no power or authority on anyone, affords no
protection, and justifies no acts performed
under it...and no courts are bound to enforce
it." [cf. 16 Am. Jur. 2d 177]

34

15. It has been said, with much truth, "Where the
law ends, tyranny begins” (Maxim of Law)
16. “justice, must satisfy the appearance of
justice”, [cf. Levine v. United States, 362 U.S.
610, 80 S.Ct. 1038 (1960), citing Offutt v.
Untied States, 348 U.S. 11, 14, 75 S.Ct. 11,13
(1954)
CONCLUSION:
For the foregoing reasons, it is requested that;
this Petition for a Writ of Certiorari be granted.

“Without justice, there can be no peace.”
MLK

[i] say here and will verify in open court, that
all herein be true; to the best of my knowledge.

DATE:07/

’rescott McCurdy

35

